LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 16, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1031: ERIN CAPRON; JEFFREY PENEDO; CULTURAL CARE, INC., D/B/A
CULTURAL CARE AU PAIR V. OFFICE OF THE ATTORNEY GENERAL
OF THE COMMONWEALTH OF MASSACHUSETTS; MAURA T. HEALEY,
IN HER CAPACITY AS ATTORNEY GENERAL OF THE COMMONWEALTH
OF MASSACHUSETTS
Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Current and
Former Au Pairs, on April 16, 2020, I caused service to be made pursuant to Rule 29
and the Court's Order of April 15, 2020 on the following counsel for the Petitioners and
Respondent.
PETITIONERS:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com

RESPONDENT:
Robert E. Toone Jr.
Office of the Massachusetts
Attorney General
One Ashburton Place
Boston, MA 02108
617-963-2178
Robert.Toone@mass.gov

This service was effected by depositing one copy of the Brief of Amici Curiae
Current and Former Au Pairs in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 16th day of April 2020.

